Supreme Court, U.S.
FILED

JUN 2 1 2021

-1

No.

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

A* Col)

— PETITIONER

(Your Name)

vs.

f

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

t c/t 5/

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

l4te tJQfO

A ClKu

(Your Name)

P o. Ro'l %i
(Address)

'T^ihu, /Uzu>
(City, State, Zip Code)

(Phone Number)

QUESTIONS PRESENTH)
l DID THE NEW JERSEY SUPERIOR COURT APPELLATE DIVISION
ERR IN CONCLUDING CONSECUTIVE SENTENCES IMPOSED
OUTSIDE PETITlONERiS PRESENCE IN OPEN COURT SOME
NINETEENTH DAYS AFTERTVK ORIGINAL SENTENCES HAD BEEN
IMPOSH) IN OPEN COURT WITHOUT SPECSFICTONS WAS NOT
COGNIZABLE TO CONSTTTUTE AN ILLEGAL SENTENCE CONTRARY
TO CLEARLY ESTABLISHED FEDERAL LAW AS DECIDED BY THE
SUPREME COURT FOR THE REASONS BELOW?
A, During the Original May 5, 1989 Sentencing Proceeding When The
Law Division Court Was Afforded Two Choices In Considering Whether
Defendant's Should. Serve The New Jersey Sentence Consecutive Or
Concurrent With His Maryland Sentence As The Sentencing Transcript
Reflects Judge Schroth Did Not Chose The Former Contrary. To The
Appellate Division Erroneous Conclusions.
B. No Provisions In The New Jersey Code Or Rules Affords The Law
Division Judge With Legal Authority To Choose To Increase. The Original
Sentence Out Of His Presence In Open Court To Run Consecutive With
The Maryland Sentence Some Nineteenth Days After The Defendant Had
Left The Courtroom.
C. The. Prosecution Had Not Raised Any Procedural Claims In The Law
Division Court In Opposition To The Defendant's Motion To Correct An
Illegal Sentence Nor Were There Any Adjudicate In That Court Or Raised
As A Claim On Appeal.
D. The Superior Court Appellate Division Commit Error In Sua Sponte
Concluding That The Petitioner’s Appeal Was Procedurally Barred For
Several Reasons.
E. Petitioner's Motion To Correct An Illegal Sentence As Grounds Why. The

New Jersey Sentence Should Run Concurrent To His Maryland Sentence
Were Completely Distinguishable Claims And Did Not Represent A
Renewing Of Claims Previously In Adjudicated In Collins,
F. Alternatively The Conclusion Reached in Collins, I, Cannot Procedurally
Barred The Collins From Raising Other Claims Why The Consecutiveness
Of The Two Sentences Constitute An Illegal Sentence.
II. DID THE NEW JERSEY SUPERIOR COURT APPELLATE DIVISION
ERR IN CONCLUDING CUNNINGHAM V. CALIFORNIA WAS
FACTUALLY DISTINGUISHABLE AND RULED A CHALLENGE IS NOT
COGNIZABLE BY WAY OF A MOTION TO CORRECT AN ILLEGAL
SENTENCE SINCE THOSE CONCLUSIONS WEffi CONTRARY TO
CLEARLY ESTABLISHED FEDERAL LAW AS DECIDED BY THE
SUPREME COURT?
A. The Appellate. Division’s Conclusions That The U.S.
Supreme Court Holdings in Cunningham Were Factually
Distinguishable From The Collins's Case Are Contrary To
Clearly Establish Federal Law As Decided By The Supreme
Court

LIST OF PARTIES

[)Q All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TABLE OF CONieiTB
OPINION BELOW.

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

.3

STATEMENT OF THE CASE.

,4

REASONS FOR GRANTING THE WRIT.

.8

CONCLUSION

.31.
INDEX TO APPENDICES

APPENDIX A Superior Court of New Jersey Appellate Division affirming Petitioner's Appeal
onAugust 17,2020:

APPENDIX B Order of the Superior Court of New Jersey Criminal LawDivision Mercer
County denying Petitioner's Motion to Correct an Illegal Sentence on June 19,2019:

APPENDIX C Supreme Court of New Jersey denying Petitioner’s petition for certification of
the judgment on March 23,2021, actual date March 26,2021:

APPENDIX D Superior Court of New Jersey Law Division Mercer County May 5, 1989
Sentencing Transcript of Petitioner's Sentencing Proceeding:

APPENDIX E Petitioner's direct appeal to Superior Court of New Jersey. Appellate Division
affirming in part, reversed in part. Remand to the Law Division for merger of the count for
possession of heroin into count for possession with intent to distribute, and for amendment
of the judgment of conviction and the sentence imposed pursuant thereto.

APPENDIX F : September 14, 1992 New Jersey Superior Court Mercer County Amended
Judgment of Counts & Order for Commitment:

TABLE OF AlfTHORmES CTTED

Apprendi v. New Jersey. 530 U S. 466,147 LEd. 2d 435, (2000) )*!

,21,28,30

Blakelv v. Washington. 542 US. 296,124 S.Ct 2531,159 LEd. 2d 403 (2005) ....... 22.
Cunningham v. California. 549 U.S. 270 (2007)...

...6,7,19,20,22,23,24,27,30

Diaz v. United States. 223 US. 442, (1912).......

,10

Illinois v.. Allen. 397 U.S. 337,342,90 S.Ct 1057,25LEd.2d.353 (1970),....

,10,12

In re De Luccia. 10 N.J. Super. 374, 76 A.2d_304 (CtyCt, 1950);.............. .

13

In re Sfaonpy. 18 NJ. Super. 334,87 A.2d 59 (CtyCt, 1952)..................

,,13

Lewis v. United States. 146 US. 370,13 S.Ct 136,36 LEd. 1011 (1892)....

,10,12

New Jersey v. Stanton. 770 A.2d 1198(N.J. Super. Ct App. Div. 2001.)....;.'.

.28

North Carolina v. Pearce. 395 U.S. 711.89 S. Ct. 2072,23 LEd, 2d 656 (1969)....,10,12
Rina v, Arizona. 536 U.S. 584,122 S.Ct 2428,153 LEd. 2d 556 (2002)

,21

State v. Acevedo. 205 N.J. 40, 47 (2011)............................... .............

,12,19

State v. Blackmon. 202 N.J. 293,297 (2010).......... .............................

6,20

State v. Cacamis. 230 N.J.Super. 1,552 A.2d 616 (1988).......... ..........

25

State s Case. 220 N.J. 49,64-65 (2014)................................................

.6,20

State v. Collins . No. A-5173-88 (App. Div., July 21,1992)....................

4

State v. Dalziel. 182 N.J. 494,500 (2005).......................
State v. Flapan. 208 NJ.Super. 573,576,506 A.2d 768 (App.Div. 1986)
State v. Johnson. 166 N.J. 523. 766 A.2d 1126 (N.J.. 2QQ1).. ....... .

... 6,20
>25
,27,28

State v.Kovack. 91 NJ. 476,482,453 A.2d521 (1982).....;..................

.29

State v. Locane. 454 N.J. Super. 98,117 (App, Div. 2018)1...................

,19,27

State v. Maouire. 84 N.J. 508:530,423 A.2d 294 (1980).......................

28

/

State v. Moslev. 335 N.J. Super 144,157, 761 A.2d 130 (App. Div. 2000)

27

State.v. Muhammad. 359 N.J. Super at 376........................

,17

State v. Murray. 162 N.J. 240,247 (2000)..........................

,12,19

State v. Pahlabel, 40 N.J. Super, 416,423 (App. Div, 1956). Mnnmn

,14

State v. Pennington. 154 N.J. 344, 357, 712 A.2d 1133 (1998)............ .....

,27

State v- Reevev. 213 N.J. Super. 37,41-42, 516 A.2d 269 (App.Div,1986)

,25

State v. Richardson. 208 N.J. Super. 399, 413-14, 506 A.2d 43 (App. Div.), certify denied^
105 N.J. 552, 523 A.2d 188 (1986)............. .................. ............................

.,28

State v. Rodriauesz. 97 N.J. 263. 478 A.2d 408 (1984),........... .............

...,10,12,14-

State v. Roth. 95 N.J. 334,344-345,471 A.2d 370 (1984)..........................

JO,12,14

State v. Sainz. 107 N.J. 283,526 A.2d 1015 (1987)....................................

,23,24

State v. Schubert. 212 N.J. 295,309 (2012)...............................................

19

State v. ShoatS; 339 N.J. Super. 359, 772 A.2d 1, (2001)........... ................

26,27

State v. Sobel. 183 N.J. Super. 473,479n. 1,444 A,2d 598 (App.Div. 1982)

.25,26

State v. Tavares. 286 N.J. Super. 610,618 (App. Div. 1996)

juini1

State v. Vernon A. Collins. Ind-No. 86-08-769, Docket No. 16156..
State v. Zuber. 227 N.J. 422 (2017)..............................................

12.,13
....12,14

12,19,19

United States v. Booker. 543 U.S. 220,12SS.Ct 738,160 LEd 2d 621 (2005),.....22,23
United States v. Faulks. 201 F.3d 208 ( 3d Cir. 1999).....................

12

NEW JERSEY STATUTES AND RULES
N.J.S.A. 2C-44-1(a)....

,20„23,24,25,26.27,30,,

N.J.S.A. 2C:44-1c<2),..

3,28

N.J.S.A. 2C:44-1 (f)(2)

11

N.J:S.A. 24:21-20a(2),.

,4

N:J.S.A. 2C:39-5b......

.4

N.J.S.A, 2C:39-4,
N.J.S.A. 24:21-19a(1),

,4,26
,4

N.J.S.A. 24;-19b(2):

25

N.J.S.A. 2C:39-3 (f),

,4

N.J.S.A. 2C:43-6b..>

18,25

N.J.S.A. 2C: 43-2(e),

17

N.JtS.A. 2C:2 (e)......

,18
RULES

Rule 3:2-10.

5

Rule 2:11-3(e)(2)
Rule 3:16.
Rule 3:214(g):

,16
,12,17,18 .

I,,5,1),I,

.... ,12,13

,,,,,,,

Rule 3:214(b)

4,9,17

Rule 3:214(e).

,,18

Rule 3:21 (f)...

,12.

Rule 3:22-5.

999

.6,14,15,18

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
/
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix #
to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
CX] is unpublished.
The opinion of the S aka.
appears at Appendix JZ__ to the petition and is
; or,
[ ] reported at__________________________
[ ] has been designated for publication but is not yet reported; or,
[Xj. is unpublished.
1.

__to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

yd For cases from state courts:
The date on which the highest state court decided my case was 3- <£?- Zx&t
A copy of that decision appears at Appendix C
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
_ (date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

\j a

-.a-

27

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
14 Amendment of the United States Constitution.

»

-3-

STATEMENT OF THE CASE
The genesis of the statement of the case relevant to Petitioner Collins convictions are
discussed, at length in. Collins initial direct appeal, State v. Collins . No. A-5173-88 (App.
Div., July 21, 1992): certif, denied; 130 N.J. 60t, (Collins 1) The, petitioner Collins was
indicted in 1986 for possession of a controlled dangerous substance (CDS), N.J.SA 24:2120(a)(2),, (count:one); possession of CDS with intent to distribute, N.J.S A. 24:21-19(a)(1),
(count two);- unlawful possession-of-a-handgun* N.J.SA 2G:39-5(b), (count-three); and
possession of hollow point bullets, N.J.S.A. 2C:39-3(f), (count four). In 1988, Collins was
found guilty on each count-by a jury.
AtPetitioner Collins’s sentencing proceedings conducted on May 5, 1989, the
Petitioner did not exercise his right under Rule 3:21-4(b) to allocution, before Judge David
J. Schroth of Mercer County Superior Court Law Division imposed a prison term of life, with
a twenty-five-year parole ineligibility period on count two. Judge Schroth directed the
petitioner Collins to serve a consecutive seven-year term on count one and a five-year term
on count three, concurrent to the sentences imposed on counts one and-two. Also Judge
Schroth merged count four into count three at sentencing.
On May 5,1989 as sentencing transcript verified the Superior Court of New Jersey,
Law Division, Mercer County, Judge Schroth did not articulate on the record in the
presence of the defendant that the New Jersey sentences imposed were to run
consecutive with the petitioner's State of Maryland sentence of 35 years. However, some
nineteenth days after the petitioner had originally been sentence on May 5,1989 and left the
courtroom. Judge Schroth out of the petitioner presence on May 24,1989 increased the

-4~

original aggregate prison term of life, with a twenty-five-year parole ineligibility on count two
by executing the judgment of conviction (JOC) to reflect the New Jersey to run consecutive
with the petitioner Collins's 35-year sentence imposed in the State of Maryland. On direct
appeal the Superior. Court of New Jersey Appellate Division affirmed the petitioner’s
conviction, but remanded to the Law Division for "merger of the court for possession of
heroin into the count for possession with intent to distribute,, and for amendment of the
judgment of conviction and sentence imposed pursuant.thereto. "Coffins I. slip op. at pages 5
and 16. Appendix (E). On September 14, 1992 upon the limited remand, Mercer County
Superior Court out of the presence of Petitioner, Amended the Original JOC to. reflect the
Appellate Division remand that Count 1 is merged with Count 2 and dismissed. Appendix

fa
Petitioner Collins filed in August 2017 a Rule 3:2-10 motion, arguing his sentence was
illegal based upon a number of grounds. The Mercer County Superior Court Law Division,
motion judge on June 19, 2019 denied Collins motion to correct an illegal sentence based
upon the enumerated reasons set forth in its opinion. Appendix. (B). Collins timely appealed
the Mercer County Superior Court Law Division, judge on June 19, 2019 denied Collins
motion to correct an illegal sentence.
On appeal, to the appellate division, Collins raised a number arguments, for that
court’s consideration. The Appellate Division held, in denying the appeal that based on our
careful review of the record, as well as this matter's extensive procedural history, we find
these arguments unpersuasive. Here, it is uncontroverted that defendant was presentat his
original sentencing and was afforded the opportunity to say to Judge Schroth whatever he
wanted to. say. Further, it is evident that Judge Schroth had two choices when considering
whether defendant should serve his New Jersey sentence consejcutively or concurrently to
his Maryland sentence. Judge Schroth chose the former. In Collins I., we found defendant's
argument that his New Jersey sentence should be modified to run concurrently to his
-5-

Maryland sentence was without, merit. Accordingly, we entered a remand under limited to
merger of defendant's punishment of CDS and possession with intent to distribute charges.
Given this procedural history, defendant is procedurally barred under Rule 3:22-5 from
renewing the argument that his New Jersey sentence should run concurrent to his Maryland
sentence, simply by labeling his 1989 sentence "illegal." Likewise, since the 1993
resentence superseded.the 1989 sentence, the same analysis applies.
The appellate division in concluding held that to the extent defendant references
Cunningham y. California. 549 U.S. 270 (2007) and argues Judge Schroth imposed an illegal
sentence by improperly finding aggravating and mitigating factors not found by the jury, we
disagree. Not only is Cunningham factually distinguishable, from this case, but our courts
have consistently recognized that trial judges have broad sentencing discretion as long as
the., sentence- is based on competent credible evidence and fits within the statutory
framework. State v. Dalziel. 182 N.J. 494, 500 (2005). Additionally, judges must identify and
consider "any relevant , aggravating and mitigating factors" that "are called to the court's
attention[.J and "explain how they arrived at a particular sentence." State v. Case. 220 N.J.
49, 64-65 (2014) (quoting State v. Blackmon. 202 N.J. 283, 297 (2010). We are satisfied
Judge Schroth adhered to those principles, that his findings of fact concerning aggravating
and mitigating factors were based on ample credible evidence and that he applied the
correct sentencing guidelines enunciated in the Code, both in 1989 and on remand in 1993,
According, we decline to find defendant's sentence or resentence was illegal. To the extent
we have not addressed defendant's remaining arguments, we find they do .not warrant
further discussion in a written opinion. R. 2:11 -3(e)(2). Appendix (A) pages 1-9.
The Petitioner timely petitioned the Supreme Court of New Jersey for certification of
the judgment in A-005136-18 and after having been submitted, and that Court having
considered same, Ordered on March 23, 2021 that the petition for certification is denied,
actual date of denial March 26,2021. Appendx (C).

-6-

REASONS FOBGRAWIlNe THE PETITION
1. To.Resolve And Determine Whether New Jersey Superior Court Appellate Division Erred
In Concluding Petitioner's Motion To Correct An Illegal Sentence Claims That Consecutive
Sentence Imposed Outside His Presence In Open Court Some Nineteenth Days After The
Original Sentence Had Been Imposed In Open Court Without Any Specification Whether
They Were To Run Consecutive Or Concurrent With His Maryland Sentence Were Not
Cognizable Claims To Raise Under That Motion Contrary To Clearly Established Federal
Law As Decided By The Supreme Court That Criminal Sentences Imposed Outside A
Defendant’s

Presence In Open Court Violate His Right To Be Present And Are

Constitutionally Illegal Sentences.

II. To Resolve And Determine Whether The New Jersey Superior Court Appellate
Division Violated Clearly Established Federal Law As Decided By The Supreme Court In
Excising Sua Sponte Authority In Ruling Petitioner Was Procedurally Barred When The
Prosecution Had Not Raised Those Claims On Appeal In Opposition To His Appeal From
The Denial Of His Motion To Correct An Illegal Sentence.

111. To Resolve And Determine Whether The New Jersey Superior Court Appellate
Violated Clearly Established Federal Law As Decided By The Supreme Court In
Concluding Cunningham

Was Distinguishable From The Case Of Petitioner Since

Cunningham v. California, 549 U.S. 270 (2007) Was Decided Upon The Very Same
Principles Decided In Apprendi v. New Jersey That Prohibited The Imposition Of Sentence
Upon Aggravators Not Found By The Jury.
-7-

ARGUMENT:
1 DID TEE NEW JERSEY SUPERIOR COURT APPELLATE DIVISION
ERR

IN CONCLUDING CONSECUTIVE SENTENCES

OUTSIDE PETTTTONERiS PRESENCE

IMPOSED

IN OPEN COURT SOME

NINETEENTH DAYS AFTER THE ORIGINAL SENTENCES HAD BEEN
IMPOSED IN OPEN COURT WITHOUT SPECIHCTIONS WAS NOT
COGNIZABLE TO CONSTITUTE AN ILLEGAL SENTENCE CONTRARY
TO CLEARLY ESTABLISHED FEDERAL LAW AS DECIDED BY THE
SUPREME COURT FOR THE REASONS BBjOW?
Aj During the Original May 5,1989 Sentencing Proceeding When The Law.
Division Court Was Afforded Two Choices in Considering Whether
Defendant's Should Serve The New Jersey Sentence Consecutive Or
Concurrent With His Maryland Sentence As The Sentencing Transcript
Reflects Judge Sehroth Did Not Chose The Former Contrary To The
Appellate Division Erroneous Conclusions.
Although the original May 5, 1989 sentencing transcript reflects that when Collins
was present in open court, Law Division Court of Mercer County, Judge Sehroth when
imposing sentencing was constitutionally authorized to choices as, to whether the New
Jersey state sentences were to be serve consecutive or concurrent with the federal
sentences previously imposed in the United States District Court for the District of
Maryland. Did not exercise either one of those two constitutional authorized choice in open
court in Collins's presence on May 5,1989
1 Nonetheless the Appellate Division in affirming on August 17,2020 Collins's Appeal of
the Law Division Court's denial of his motion to correct an illegal sentence ruled as follows:.
Here, it is uncontroverted that defendant was present at.his original
sentencing and was afforded the opportunity to say to Judge Sehroth
whatever he wanted to say. Further, it is evident that Judge Sehroth had
two choices when considering whether defendant should serve his New
Jersey sentence consecutively or concurrently to his Maryland sentence.
Judge Sehroth chose the former.
-8-

Appendix (A) at Pa 7,
Those conclusions were in direct conflict with the. sentencing transcript of May 5,
1989 that reflects the Mercer County Superior Court Judge did not exercise either of the
two .constitutional choices of discretion. May 5, 1989 sentencing transcript of pg. 13, lines
14-25; pg. 14s lines 1-25; and pg. 15, lines 1-13. Appendix (D). To the contrary, the Mercer
County Superior Court instead elected to exercise one of those two constitutionally choices
of discretion to imposed consecutive sentences on May 24, 1989, some-nineteenth days
after Collins had already left the courtroom as the Appellate Division Per Curiam Opinion
acknowledged.
At his sentencing on May 5, 1989, defendant exercised his right to
allocution, under Rule 3:21-4(b), before Judge David J. Schroth imposed a
'\

prison term for life, with a twenty-five-years parole ineligibility period on
count two. 1 / The judge also directed defendant to serve a consecutive
seven-year term on count one and a five-year term, on count three,
concurrent to the sentences imposed on counts one and two. Also, the
judge merged count four into count three at sentencing. On Mav 24.1989.
Judge Schroth executed a judgment of conviction (JOC) reflecting this
sentence, and as we observed io Collins L per the JOC. defendant was
directed to serve his aggregate sentence.11 consecutive to a previous thirtvfive-vear sentence for a Maryland conviction.
At pg. 2, paragraph 3; and at pg. 3, paragraph 1 and -2. Appendix (A)
tn.that light at that point when Collins was no longer present in open court and had
already left the courtroom some 19 days earlier, the exercise of such constitutional
discretion to impose consecutive sentences was legally no longer available to the Mercer
County Superior. Judge. Since that Court was constitutionally required to exercised such

FN1. Contrary Id the appellate rfvision's opinion, K stolid be jurfdafly noted Coffins did not
allocute but instead declined as the May 5,1989 sentencing transcript reflect at pg. 8, Nnes
6-9. Appendix (D).

-9-

discretion in Collins's presence in open court as to whether he should serve the Jersey:
sentences consecutively or concurrently with Ns Maryland federally imposed sentence.
Thus Judge Schroth's exercise of one of those two authorities constitutional choices of
discretionary to impose consecutive sentences outside Collins's presence in open court
on May 24,1989 some nineteenth days after he had originally been sentenced earlier on
May 5, 1989 and left the courtroom without any specification as to how the Jersey state
sentence were to run with his federally imposed sentences. Constitutes an illegal increasing
of Collins's sentence originally imposed on May 5, 1989 because the sentence was
imposed in direct violation of his constitutional right to be present and therefore was
imposed contrary to clearly established federal law as established by the Supreme Court.
See Diaz v. United States. 223 U.S. 442, (1912) (As has been so often point out, a criminal
defendant right to be present at every stage of his trial is a common law right, is to some
extent protected by the 14th Amendment to the U.S. Constitution.) at 445; United States v.
Faulks. 201 F.3d 208 ( 3d Cir. 1999) "We began our analysis by noting that "one of the most
basic of the rights guaranteed by the Confrontation Clause is the accused right to be present
in courtroom at every stage of his trial "Illinois v. Allen. 397 U.S. 337, 338, 25 LEd. 2d 353,
90 S.Ct 136, 1057 (1970) (citing Lewis v. United States. 146 U.S. 370, 36 L.Ed. 1011, 13
S.Ct. 136, (1892)); the defendant's right against being subject to double.jeopardy. State v.
Roth, 95 N.J. 334, 344-345, 471 A.2d 370 (1984).; also see State v. -Rodripuesz. 97 N.J.
263, 478 A.2d 408 (1984), the double jeopardy protection generally prohibits an increase in
sentence following the .commencement of execution. See e.g., North Carolina v. Pearce
395 U.S. 711,89S.Ct. 2072,23L£d.2d 656 (1969) (due process).
B. No Provisions In The New Jersey Code Or Rules Affords The Law
Division Judge With Legal Authority To Choose To Increase The Original
Sentence Out Of His Presence In Open Court To Run Consecutive
With The Maryland Sentence

Some Nineteenth Days After The

Defendant Had Left The Courtroom.
-10-

5

Although all sentences imposed in the State of New Jersey become final on the
date of sentencing, with the one exception being when the sentence is Imposed pursuant
to N.J.S.A. 2G:44-1(f){2) that sentence does not become final until 10:days later. See Rule
3:21-4(g) that readies in pertinent part:..
(g) Sentence Imposed Pursuant to NJ-SA 2C:44-1 (f)(2). In the event the
court imposes sentence pursuant to NJ.S.A. 2C;44-1 (f)(2), such sentence
shall not become final until 10 days after the date sentence was
pronounced.
Also see Code of Criminal Justice NJ.S.A. 2C:44-1 (f)(2)
tf the court does impose sentence pursuant to this paragraph, or if the
court impose a noncustodial or probationary sentence upon conviction for
a crime of the first or second degree, such sentence shall not become
final for Ifi davs in order to permit the appeal of such sentence by the
prosecution.
However, after the original sentence had already been imposed 'in the presence of
Collins on May 5,1989 without any specification as to whether the state sentences of New
Jersey were to run either consecutively or concurrently with the Collins's federally imposed
Maryland sentences of thirty-five-years and had become final. Judge Schroth nonetheless
on May 24, 1989 some nineteenth days later issued a JOC order outside the present of
Collins in open court that increased the original state sentences imposed without any
specification on May 5,1988. By ordering those sentences to now run consecutive with the
federally imposed Maryland sentences. Constitutes consecutive sentences not imposed in
accordance with the law since with the one exception of a sentence having been imposed in
accordance with the provisions of the Code of Criminal Justice N.J.S.A. 2C:44-1 (f)(2); also
see Rule 3:21-4(g). No provisions in the Code or authorizes or prevents the original
sentence imposed in the Petitioner’s presence from becoming final on the date of its
imposition.
-11-

Therefore because the consecutive sentences imposed some 19 days later when
Collins was not presence, in open court they were not imposed in accordance with law
because, they were imposed without any regard to constitutional safeguard in mind. Such as .
Collins!s constitutional right to be present at sentencing and his right not to be subject to
double jeopardy as set forth below as follows: 2f
'1] the defendant's constitutional right to be present at the time of
sentencing; Diaz v. United States. 223 U.S. 442, (1912) (As has been so
often point out, a criminal defendant right to be present at every stage of
his trial is a common law right, is to some extent protected by the 14th
Amendment to the U.S. Constitution.) at 445; United States v. Faulks.
201 F.3d 208 ( 3d Cir. 1999) "We began our analysis by noting that “one of
the most basic of the rights guaranteed by the Confrontation Clause is the
accused's right to be present in courtroom’ at every stage of his trial
"Illinois v. Allen. 397 U.S. 337, 338, 25 LEd. 2d 353, 90 S.Ct. 136,1057
(1970) (citing Lewis v. United States. 146 U.S. 370, 36 LEd. 1011, 13
S.Ct 136, (1892)).
'2] the defendant's right against being subject to double jeopardy. State v.
Roth. 95 N.J. 334, 344-345, 471 A.2d 370 (1984).; also see State v.
Rodriauesz. 97 N.J. 263, 478 A.2d 408 (1984), the double jeopardy
protection generally prohibits an increase in sentence following the
commencement of execution. See e.g., North Carolina v. Pearce. 395 U.S.
711,89 S.Ct. 2072, 23 LEd.2d 656 (1969) (due process). 3
FN2 See "Acevedo. 205 N.J. at 45 (quoting Stale v. Murray. 162 NJ. 240. 247 (2000)).
'That includes a sentence "imposed without regard to some constitutional safeguard"
Zufcer. 227N.J. at 437 (quoting State v. Tavares. 286 N.J. Super. 610,618 (App. Div. 1996).
•: •

FN3. New Jersey CHAPTER Eli. Rule 3:16; Rule 3:214<b); and Rule 321 (f), each of those
rules works in harmony with the New Jersey Stateand U.S. Constitutional requirements of
a criminal defendant's rightto be present before sentence is imposed, and connotes any
sentence imposed out tie defendants present not imposed in accordmg with law and is a
illegal sentence.
-12-

Viewing the May 5, 1989 sentencing transcript when the original Life sentence with
twenty-five years parole ineligibility was originally imposed orally in open court in the
presence of Collins. That transcript reveals the sentences were imposed on the record
without any oral specificity as to how to the state sentence were to be served with the
federally imposed sentences of thirty-five-years. As so the New Jersey sentence of life
imprisonment with twenty-five-years parole ineligibility imposed for Collins conviction as to
count (2) possession with intent-to distribute legally must as a matter of law run.concurrently
with the federally imposed sentence . See In re De Luccia. 10 N.J. Super. 374, 76 A.2d 304
(CtyCt, 1950): In re Sbonqy. 18 N.J. Super. 334, 87 A.2d 59 (CtyCt, 1952}. also see State v.
Pahlabel. 40 N.J. Super. 416, 423, 123 A.2d 391 (App. Div. 1956) transcript remarks
control over clerk's records), the judgment of conviction cannot embody as sentence which
constitutes an increase above the original imposed by the trial judge, unless the appellate
court orders an increase or reconsideration, or unless an illegal sentence is subsequently
corrected. See e.g. .State v. Rodriouesz. supra; State v. Roth, supra. *t
In that light the May 24, 1989 'JOC Order’ increasing outside Collins's presence in
open court the New Jersey state sentence of Life imprisonment with twenty-five years
parole ineligibility original imposed without any specification as -to how. the were to run
consecutively or concurrently with the federally imposed Maryland sentence of 35-year on
May 5,1989. Constitutes an illegal sentence because the order issued some 19 days after
the original sentence had been imposed making the state sentences to run consecutive
were not imposed in accordance with law mandating all sentences shall be imposed in the

FN4. In Coflfos, I. the appellate court dd not orders an increase or reconsider of foe original
sentence imposed Instead it merely ordered limited remanded to the Law Division for
merger of the count for possession of heron into the court for possession with Herd to
distribute, and for amendment of the judgment of conviction and sentence imposed pursuant
thereto. See State of New Jersey v. Vernon Colfins. Docket No. -5136-1813, explaining
that foe remand here was limited Appendix (E) pages 5 and 16.
-13-

presence of a defendants open court.
C. The Prosecution Had Not Raised Any Procedural Claims In The Law
Division Court In Opposition To The Defendant's Motion To Correct An
Illegal Sentence Nor Were There Any Adjudicate In That Court Or Raised
As A Claim On Appeal.
In the present, the New Jersey Superior Court Appellate Division sua sponte ruled
that the Collins under Rule 3:22-5 was procedurally barred from raising the legality of the
consecutiveness of his sentences for the following reasons:
In Collins I, we found defendant's argument that his New Jersey sentence
should be modified to run concurrent to his Maryland sentence was without
merit. Accordingly, we entered a remand order limited to merger of
defendant's possession of CDS and possession with intent to distribute
charges. Given this procedural history, defendant js procedurally barred
under Rule 3:22-5 from renewing the argument that his New Jersey
sentence should run concurrent to h[s Maryland Sentence, simply by
labeling his 1989 sentence Illegal.." Likewise, since the 1993 resentence
superseded the 1989 sentence, the same analysis applies.
AppendxfA) al pages 7-8.
However, the problem with-the appellate division's-sua sponte reasons for denying .
Collins's appeal upon grounds he was procedural barred were based on conclusions not
raised the prosecution had in the superior court law division as a basis for denying his
motion to correct an illegal sentence
Second, Judge Massi of the law division court did not ruled as a basic for denying
the defendant's

motion to correct an illegal sentence upon grounds that he was

procedurally barred. Third the prosecution had not raised as a claim for dismissing the
defendant's appeal that the defendant was procedural bar .Viewed with those precepts in
mind, the appellate division was without legal authority or jurisdiction to sua sponte declare
the defendant was procedurally barred from renewing the argument that his New Jersey
-14-

sentence should run concurrent to his Maryland sentence. Since appellate state courts
throughout the of the United States have repeatedly held as a matter of general
jurisprudence when a question was not presented or not decided in the law division an
appellate court does not have appellate jurisdiction to adjudicate the clam or claims. Since
the appellate division powers are limited to appellate review of matters adjudicated in the
lower courts. Thus the appellate division had no legal authority to sua sponte invade the
province of the nisi prius courts (Mercer County Law Division Court) in making an original
factual finding in deciding points not presented, raised or decided as a basis in the June 19,
2019 law division court order for denying his motion to correct an illegal sentences or even
raised on appeal as a claim.
D. The Superior Court Appellate Division Commit Error In Sua Sponte
Concluding That The Petitioner's Appeal Was Procedurally Barred For
Several Reasons.
In this case, in affirming Collins's Appeal on August 17, 2020, the Appellate Division
based on its own conclusions that it previously decided in Collins I, concerning arguments
that his New Jersey sentence should be modified to run concurrent to his Maryland
sentence was without merit. Erroneously concludes the Collins is procedurally barred
under Rule 3:22-5 from renewing the argument that his New Jersey sentence should run
concurrent to his Maryland Sentence, simply by labeling his 1989 sentence "illegal,."
Likewise, since the 1993 resentence superseded the 1989 sentence, the same analysis
applies. Appendix (A) at page 8, As a result those conclusions of the Appellate Division
were preposterous for a myriad reasons: Collins’s appellant counsel in Collins I, merely
argued in Point VI the following grounds:
A. This Sentence Must Run Concurrently With The Federal
(SIC) Defendant Is Serving.
B. The Conviction For Possession Must Merge With The
-15-

Conviction For Possession With intent To Distribute
C.The Defendant Must Be Given The Opportunity To Elect To
Be Sentenced Under The CDRA.
Thus Collins's appellant

counsel with respect to VI (A)

merely argued for

modification of the consecutive sentence to concurrent were upon grounds that the State of
Maryland had not imposed a sentence upon the defendant but instead the federal
government had. As so the New Jersey sentence should be modified to run concurrently
with his federally imposed sentence of thirty-fiye-years. To which the appellate division in
Collins I, ruled without any explanation as follows:
With the exception of Point VIB; we find all of the defendant's contentions
to be clearly without merit. R. 2:11-3(e)(2). We. agree with him that his :
conviction, for possession of heroin should merge with his conviction for
possession with intent to distribute. The State concedes. Affirmed in part;
reversed in part. Remanded to the Law Division for merger of the count
for possession of heroin into the count for possession with intent to
distribute, and for amendment of the judgment of conviction and the
sentence imposed pursuant thereto.
AppendbcfF): at pages S and 16. s/
Collins's motion-to correct an illegal sentence on the other hand filed in 2017 was
premise upon completely distinguishable claims of illegality then those claims previously
raised on direct appeal in Collins, I. Since in the 2017 motion to correct an illegal sentence
for instant the claims were base on multiple facias grounds set forth below:
I. THE IMPOSITION OF AN INCREASE SENTENCE OUTSIDE THE
DEFENDANTS PRESENCE BY ADDING A PROVISION TO THE
JUDGMENT OF CONVICTION AND ORDER FOR COMMITMENT
FN5. Pursuant to Rife 2:11-3(e)(2 means the argument lacked sufficient merit to warrant
dscussion in a written opinion. State v. Miiiammad. 359 N.J. Super at 376.
-16-

/

THAT THE SENTENCES WOULD RUN CONSECUTIVE WITH . ALL
SENTENCES IMPOSED BY THE STATE OF MARYLAND VIOLATED
HIS CONSTITUTIONAL RIGHTS TO BE PRESENT PURSUANT TO
RULE 3:16, RIGHT TO ADDRESS THE COURT PURSUANT TO BOTH
RULE 3:21-4(b), 2C: 43-2(e), AND RIGHTS PURSUANT TO RULE 3:214(e) RENDERS THE SENTENCES IMPOSED ILLEGAL SENTENCES.
(a) Once The Sentences Were Orally Pronounced In Open Court And The
Court Stated "You May Go" Only Those Sentences Could Not Be
Increase.
(b) Without Recalling Mr. Collins Back To The Courtroom The Sentence
Originally Imposed Could Not Been increasing To Run Consecutive With
Any Sentence Previously Imposed By The State Of Maryland By Adding
Such Provision

To The Judgment of Conviction And Order For

Commitment Without Violating His Constitutional Right To Present And
Right To Allocution.
(c) Increasing The Orally Pronounced Sentences Out Of The Defendant's
Presence By Adding In The Judgment And Order For Commitment The
Sentences Are To Run Consecutive With MD Sentences Violated His
Constitutional Right To Be Present At Every Critical Stage Of The
Sentencing Proceedings And Right To Allocution.
Clearly Collins's 2017 motion to correct an illegal sentence in that light did not
constituted a renewing of the original arguments his appellant counsel raised on direct
appeal and decided to be without merit or without need for a written explanation. To the
contrary, the arguments raised in Collins’s

2017 motion were instead completely

distinguishable from those claims raised on direct appeal in Collins, I,.
E. Collins's Motion To Correct An Illegal Sentence As Grounds Why The
New Jersey Sentence Should Run Concurrent To His Maryland Sentence
Were Completely Distinguishable Claims And Did Not: Represent A
Renewing Of Claims Previously In Adjudicated In Collins I,
■

-■ -17-

The previously conclusions of the appellate division in Collins J, that his claim VI (A)
were without merit does not legally constitute a ruling on the merits. That is a legal
prerequisite in order for Rule 3:22-5 to apply that readies in pertinent part as follows:
Rule 3:22-5. Bar of Ground Expressly Adjudicated. A prior adjudication upon
the merits of any ground for relief is conclusive whether made in the
proceedings resulting in the conviction or in any postconviction proceeding
brought pursuant to this rule or prior to the adoption thereof, or in. any appeal
taken from such proceeding.
Here on direct appeal in Collins I, the previously Appellate Division Court did not in
anyway expressed an adjudication on the merits with respect to Collins's Point Vi (A)
argument. Instead merely asserted Collins’s Point Vi (A) argument was without merit. As a
result Rule 3:22-5 does not apply because that New Jersey Rule necessitated as a
prerequisite an actually adjudication expressed in the written opinion to constitute a ruling on
the merits. In that light, the Appellate Division August 17, 2020 affirming of Collins's appeal
from the law division denial of his motion to correct an illegal sentence could. not have been
procedurally barred under Rule 3:22-5 from renewing an argument that his New Jersey
sentence should run concurrent with the federally imposed Maryland sentence of thirty-fiveyears. Since the Appellate Division's decision was erroneously based on reliance's on New
Jersey Rule 3:22r5 that did not apply.
F. Alternatively The Conclusion Reached in Collins, I, Cannot
Procedurally Barred The Collins From Raising Other Claims Why The
Consecutiveness Of The Two Sentences Constitute An Illegal
Sentence.
The conclusions decided.in Collins, I, that Point VI (A) was without merit cannot
serve to procedurally barred the defendant from raising other claims as to why the
consecutiveness of the the New Jersey sentence constitute an illegal sentence. Such as
the claims raised in the law division court in defendant’s August* 2017 motion to correct an
-18-

illegal sentence and on appeal from the denial of those claims. Since a-truly illegal sentence
can be corrected at any time." State v. Zuber. 442 N.J. Super. 611, 617 (App. Div. 2015),
rev'd on other grounds, 227 N.J. 422 (2017); State v. Schubert. 212 N.J. .295, 309 (2012). A
sentence is illegal if it ‘exceeds the maximum penalty provided in the Code for a particular
offense,’ is not imposed in accordance with taw.' or fails to include a mandatory sentencing
requirement." State v. Acevedo. 205 N.J. 40,45 (2011); State v. Locane. 454 N.J. Super. 98

3 •

117 (App. Div. 2018). A sentence "not imposed in accordance with law" includes a
"disposition [not] authorized by the Code. State v. Murray. 162 N.J. 240, 247 (2000),
Otherwise the motion to correct an illegal sentence would become meaningless.
In sum, considered with all of those important precepts in mind, the conclusions of
New Jersey Superior Court Appellate Division for affirming Collins’s appeal, were contrary
to clearly establish federal law as has been decided by the U.S. Supreme Court with .
respect to a defendant's constitutional right to be present at the time of sentencing, and one
imposed outside the his present constitutes an illegal sentence.
ARGUMENT:
fl. DID TEE NEW JERSEY SUPERIOR COURT APPELLATE
DIVISION ERR IN CONCLUDING CUNNINGHAM V. CALIFORNIA
WAS FACTUALLY DISTINGUISHABLE AND RUED A CHALLENGE
IS NOT COGNIZABLE BY WAY OF A MOTION TO CORRECT AN
ILLEGAL SENTENCE SINCE THOSE CONCLUSIONS WERE
CONTRARY TO CLEARLY ESTABLISHED FEDERAL LAW AS
DECIDED BY THE SUPREME COURT?
Here as the basis for denying Collins appeal the appellate division ruled to the extent
defendant references Cunningham v. California. 549 U.S. 270 (2007) and argues Judge
Schroth imposed an illegal sentence by improperly finding aggravating and mitigating factors
not found by the jury, we disagree. Not only is Cunningham factually distinguishable from
this case, but our courts have consistently recognized that trial judges have broad
-19-

sentencing discretion as long as the sentence is based on competent credible evidence and
fits within the statutory framework. State v. Daiziel. 182 N.J. 494, 500 (2005), Additionally,
judges must identify and consider "any relevant aggravating and mitigating factors" that "are
called to the court's attention!.] and "explain how they arrived at a particular sentence." State
v. Case. 220 N.J. 49, 64-65 (2014) (quoting State v. Blackmon. 202 N.J. 283, 297 (2010).
We are satisfied Judge Schroth adhered to those principles, that his findings of fact
concerning aggravating and mitigating factors were based on ample credible evidence and
that he applied the correct sentencing guidelines enunciated in the Code, both in 1989 and on
remand in 1993. According, we decline to find defendant's sentence or resentence was
illegal. To the extent we have not addressed defendant's remaining arguments, we find they
do not warrant further discussion in a-written opinion. R. 2:11-3(e)(2). Appendix (A) at pq 9.
A. The Appellate Division's Conclusions That The U.S.
Supreme Court Holdings In Cunningham Were Factually
Distinguishable From The Collins's Case Are Contrary To
Clearly Establish Federal Law As Decided By The Supreme
Court.
Collins argues contrary to the New Jersey Superior Court Appellate Division
conclusions with respect to this Court's holdings found and decided in Cunningham v.
California. 549 U.S. 270 (2007). Cunningham is neither factually or actually distinguishable
from Collins's case as the appellate division erroneously ruled in denying Collins appeal
from the denial of his motion to correct an illegal sentence of Life imprisonment with twentyfive years parole ineligibility imposed pursuant to the New Jersey Sentencing Statute 2C44-1 (a). Since Cunningham renders enhanced sentences like those imposed pursuant to
2C-44-1(a) and (b) with twenty-five years parole ineligibility on trial judges findings of
statutory and non-aggravating factors upon a standard of proof of a preponderance of the
evidence not found by the jury that increases the quantum of punishment constitutes a
constitutional illegal sentences. Similar to this Court's landmark decision decided
-20-

Apprendi v. New Jersey. 530 U.S. 466,120 S.Ct 2348,147 LEd 2d 435 (2000) in which the
Supreme Court held:
Where the defendant Apprendi was convicted of. a crime punishable by
five to ten years in prison, however, he was sentenced to twelve years
based upon a fact, not found by a.jury beyond a reasonable doubt. That
he committed the crime with the purpose of intimidating protected groups.
Id. at 470-71. And concluded that "any fact that increases the penalty for
a crime beyond the prescribed statutory maximum must be submitted to
a jury, and beyond a reasonable doubt." Id. at 490.
Cunningham is thereafter one of a long line of Supreme Court cases decided that
involved sentencing proceedings that imposed sentences based on facts not found by the
jury For example the Supreme Court some two years later Apprendi considered a similar
question in Ring v. Arizona. 536 U.S. 584, 122 S.Ct. 2428,153 LEd. 2d 556 (2002). In Ring
the jury was instructed on both premeditated murder and felony murder for a death arising
from an armed robbery. The jury could not reach a verdict on premeditated murder, but
convicted Ring of felony murder, for which the maximum penalty, absent aggravating
circumstances and the finding to support them, was life imprisonment. At the sentencing
hearing, held by law before the judge alone, the accomplice testified that Ring was planning
the robbers for weeks before it occurred, shot the victim with a rifle equipped with a home
made silencer, and directed the getaway. Id. The sentence judge found two statutory
enumerated aggravating factors: “that Ring committed the offense in expectation of receiving
something of pecuniary value," and "that the offense was committed in an especially
heinous, cruel or depraved manner." Id. at 594-95 (citation omitted). The sentencing judge
concluded that those two aggravating circumstances, thereby warranting the imposition of
the death penalty. Id. at 595, 592-593. However, the Supreme Court reached the same
result it did in Apprendi and held that imposing the greater sentence only after judicial fact
finding was unconstitutional. Id. at 809.
-21-

Then some three years after Ring was decided, the U.S. Supreme Court took up the
question of what constitutes a statutory maximum" for Apprendi purposes in Blakely v.
Washington. 542 U.S. 296, 124 S.Ct. 2531,159 LEd. 2d 403 (2005). Blakely kidnapped his
estranged wife at knife point and drove her into Montana, threatening her with a shotgun. Id.
at 298. He plead guilty to reduced charges and he admitted in his plea only elements of the
offense. Id. at 298-99. The statutory maximum for those offenses was ten years under
Washington State law, but a sentence above a "standard range" of 49 to 53 months was
prohibited absent the sentencing judge finding "substantial and compelling reasons justifying
an exceptional sentence" up to ten years." Id. at 299. Blakely was sentenced well above the
standard range upon the sentencing judge's finding that he acted with cruelty." Id. at 303.
The Supreme Court held that the "standard range" was the statutory
maximum for Apprendi purposes, thus any facts found justifying a
sentence above the standard range must be found by a jury. Id. at 303-04.
And held in United States v. Booker. 543 U.S. 220, 125 S.Ct. 738, 160
LEd. 2d 621 (2005) the high court applied the teachings of Apprendi;
Ring,, and Blakely to the federal sentencing regime. The Court held that
the upper end of the then mandatory Federal sentencing guidelines, eve
though it was below the maximum sentence established by Congress,
was the statutory maximum for Apprendi purposes. Thus, judicial fact
finding used to justify a sentence above the guidelines range violated the
Sixth Amendment. Booker, 543 U.S. at 233-35 (Opinion of Stevens, J.).
Some two years later after Blakely and Booker were decided in 2005 the U.S.
Supreme Court in 2007 decided Cunningham v. California. 549 U.S. 270,127 S.Ct. 856,166
LEd. 2d 856 dealing with California's Code, which established a low, mid, and upper range
sentence for the crime codified therein. These were not ranges within which the sentencing
judge could exercise his discretion, rather, they were fixed points the sentencing judge was
to choose from. Id. at 292. For example, Cunningham's crime of continuing sexual abuse
had a lower term of 6 years, a middle term of 12 years, and an upper term of 16 years. Id. at
-22-

275. Whereas, California penal code obliged the sentencing judge to impose a middle^ term
sentence unless the judge, not the jury, found mitigating or aggravating factors. Id. The
Supreme Court held:
California's sentencing system was unconstitutional because the judge
was required to find the facts necessary to impose a higher sentence than
was permissible based on the jury's alone. Cunningham v. California. 549
U.S. 270, Id. at 288-89,292-93.
Like the former sentencing Code of California this Court decided after Apprendi and
other cases that lead a decision in Cunningham declaring California sentencing code
unconstitutional. The New Jersey Code N.J.S.A 2C-44-1 Sentencing Scheme is likewise
similar because like California’s former sentencing statute it requires the trial judge to taking
of additional findings of aggravating factors by the trial judge to determining upon a mere
preponderance of the evidence standard of proof whether to increase the quantum range of
punishment the defendant would faces beyond those found in the jury's verdict of guilt. A feet
Judge Schroth acknowledge during Collins's May 5, 1989 sentencing proceedings as
follows:
. And, the first decision I'm supposed to make, whether or not this is a jail
case! And, if it is, I have to review the aggravating circumstances and the
mitigating circumstances to determine whether or not you are entitled to
presumptive or greater or lesser sentence. Appendix (D) at Pg. 11,
paragraph 3, also see 2C:44-1 (a)! through 11.
Thus the critical question posed in the case sub judice is because New Jersey
sentencing scheme 'N.J.SA (2C44-1)' required the trial judge to rnake additional findings of
aggravating and mitigating circumstances necessary to determine whether a presumptive
or a greater or a lesser prison sentences should be imposed, rather than the jury. State v.
Sainz. 107 N.J.283,526 A.2d 1015 (1987)
We consider first the general purpose of aggravating and mitigating factors under
-23- ■

the Code. Aggravating and mitigating factors are used to insure that sentencing is
individualized without being arbitrary. The factors insure that the sentence
imposed is tailored to the individual offender and to the particulate crime he or she
committed. By establishing under the Code presumptive sentences that could be
supplanted only after a finding of a preponderance of aggravating or mitigating
factors, the Legislature promoted a uniformity in sentencing practices. See
N.J.S.A. 2C:44-1 to 6.
Unlike the situation with Code offenses, there were no presumptive sentences for
CDS Act violations. Nevertheless, the determination and weighing of aggravating
and mitigating factors in CDS eases can serve the same purpose as in the Code.
. This process can guide judicial discretion and ensure uniformity and consistency
in the exercise of this discretion. As observed by the Appellate Division, the
determination and weighing of aggravating and mitigating factors is a "critical
guideline for arriving at an appropriate sentence for a CDS Act offenseE ] [ij order
to reduce unacceptable disparity" in sentencing. [FN3] Sainz, supra, 210 N.J.
Super, at 24,509 A.2d 192.
Sainz, supra 107 N.J. at 287-289. */
Mercer County Judge Sehroth based upon a mere preponderance of the evidence
standard of proof sua sponte concluded under those sentencing scheme as follows:
And, the first decision I'm supposed to make, whether or not this is a jail case.
And, if it is, l have to review the aggravating circumstances and the mitigating
circumstances to determine whether or not you are entitled to a presumptive or
a greater or a lesser sentence. In reviewing the aggravating circumstances. 1
find that number one is present; the nature and circumstances of the offense
and the role of the actor herein, including whether or not the crime was
committed in an especially heinous, cruel or depraved manner. Not only was
there a very large amount of pure narcotics involved, bid you were also stopped
whSe in the process of going for a loaded gun; which your record wotid indicate
you would not hesitate to use. 7 /
Number three is present; the risk that the defendant would commit another
offense. That appears to me to be an absolute certainty. You’ve lived a life of
■ ■

-24-

;

crime. There's every indication that you would have no intention- of- doing
anything other than to continue living a life of crime. That is your way of
existence.
Number six is present; the extent of the defendant’s prior criminal record and
the seriousness of the offenses of which you have been convicted. You have
a disgraceful criminal record. You are obviously a serious threat to the safety
of law abiding citizens.
And, number nine is present; the need for deterring the defendant and others
from violating the law. You’re an individual that has to be stopped, and the only
FN6. N.J.SA 24:21-196(2). prior to its repeal by L 1987, c. 106, § 25, provided; b. Any
person who violates subsection a with respect toe (2) A substance, in a quantity of one
ounoe or more inducing any adulterants ordButants, classified in SchedUes I or II which is a
narcotic drug, provided that there are included at least 3J> grams of the pure free base
SchecMe I or II narcotic drug, is guilty of a tiffo misdemeanor and shall be pinished by
imprisonment for up to Bfe. a fine of not more than $25.000,00. or both... Although none offoe
sentencing provisions in Title 24. fodudfoq NJ.SA 24-21-19b(2). provided for terms of
pajote inefkgbffitv the law is weB established that the quideBnes for parole inedibility
contained in N.J.SA 2C:43-6b apply to sentencinq for Title 24 convictions. State V.
Reevey. 213 NJ. Super. 37, 41-42, 516 A2d 269 (AppDiv.1986); State v. Fhoam 208
NJSuper. 573, 576, 506 A2d 768 (AppDiv. 1986); State v. Sobel. 183 NJ. Si^er. 473,
479n. 1,444 A2d 598 (AppDiv. 1982). Prior to its amendment in 1981, N.J.SA 2C:43^b
provided for the imposition of minimum parole mefigfoffity terms only with respect to
sentences for Title 2C crimes of the first and second degree. In its amended form, however,
N.J.SA 2C:43-6b now provides: b. As part of a sentence for any crime, where foe court is
dearly convinced that foe aggravating factors substantially outwekfo the. mitigating factors,
as set forth in subsections a and b. of 20:44-1, foe court may fix a mirvmixn term not to
exceed one-half of the term set pursuant to subsection a*, or one-half of foe term set
pursuant to a maxnruxn perfod of incarceration for a crime set forth in any statute other than
this code, during which foe defendant shafi not be eligible for parole; provided that no
defendant shall be eligible for parole at a date earlier than otherwise provided by the iaw
governing parole. See State v. Cacamis. 230 NJ.Super. 1,552 A2d616 (1988) at 6-7; State
v. Reevev. 37.516 A2d 269 (1986).
-25-

way to stop you is to put you behind bars and keep you there. You're a
violent anddangeraus individual.
I've also reviewed the mitigating circumstances contained in the code and
find that absolutely none of them come close to existing.
Mr. Collins has a total contempt for our laws, so the sentence of the Court
will be on possession with intent to distribute, Count 2—. This narcotic had a
varying degree of value. It had one value in New York where you went to buy
it, and then as you cross the George Washington Bridge, you getto Newark,
it went up one hundred dollars. And then when you got down to Trenton, it
werrt up another one hundred thousand doBars. When you get to Washington,
it goes up another one hundred thousand dpB&s. So, it's worth at least two
hundred fifty thousand dollars accenting to the testimony here in this area. A
quater ofamiion dollars, and more valuable as you went soutti. B/
On the possession with intent to distribute pursuant to the statute, you'll be
committed to the custody of the Commissioner of the Department of
Corrections for a period of life. And, you'll be ineligible for parole for a period
of twenty-five

years. Tm

circumstances

substantially

clearly

convinced that the aggravating

outweigh

the

non-existent

mitigating

circumstances. This is an extremely serious case and you are an extremely
FN7. It should be judicially noted that Collins had not been charged with of N.J.SA 2C:394
the use of a weapon in tiie commission of a crime which is a felony offense under New
Jersey law. See State vi Shoals. 339 NJ. Super. 359, 772 A2d 1, (2001). Nevertheless
pursuant to the New Jersey Sentencing Statute 2C:44-1 (a), Mercer County Judge Schroth
considered this non statutory aggravating circtenstance as a aggravating factor for
imposing the trended Sentence" despite such had not been submit to or fowd by the
jury beyond reasonable.
FN8. It should be judicial noted at the serrfencfog hearing that Coffins object to the use of
these stadutory and non statutory aggravating circumstances fbuid by Judge Schroth upon
a preponderance of tfie evidence had not been either submitted to, or found by the jury
beyond a reasonable doubL Appencfx(D) at Pg. 4, Iines 3-12.
-2&T

dangerous, violent person and you deserve the maximum allowed by law so
that society can be protected.
For Count 1,.I'm not merging possession because you possessed these
narcotics here in New Jersey, and; you; possessed, them: with,the intent to
distribute them in another state, 9/ so they are separate offenses and do not
merge.. But, if. you!lf waita.minute,. i. have to.getsomething. Sentence of the.
Court will be that you will be committed to the custody of the Commissioner
of the Department, of Corrections: for a period, of seven years,, which
sentence is to run- consecutive^ Count 2.
Appendix (D). at.pages 1-1-14.,
Clearly, 2C-44-1 [a] of the New Jersey sentencing scheme that permitted based on
the trial, judge findings of statutory and . non statutory aggravating, circumstances the
imposition of an

higher sentence of life with twenty.-five years, parole ineligibility.

Unequivocally was an equivalent of the former California sentencing scheme the Supreme
Court in Cunningham v. California, determined to be unconstitutional; were the judge was
required, to find the facts: necessary to impose a higher sentence-than was permissible
based on the jury’s verdict alone. Id. Cunningham’s at 288-89, 292-93. Even the Supreme
Court of New Jersey acknowledge same in ruling on the effect Apprendi v. New Jersey hadon its sentencing scheme in State v. Johnson. 166 N.J, 523, 766 A.2d 1126 (N.J., 2001):
The? sentiments expressed in. Apprendi about, the. actual effect; of a.
sentence are reinforced by the laws and jurisprudence of this State.
Concededly, a.NERA sentence does not impose an increased maximum
prison sentence beyond that otherwise available under the Criminal Code.
However,, "we have always: recognized that; real: time is the realistic and
practical measure of the punishment imposed." State v. Mosley. 335 N.J.
Super 144, 157, 761 A.2d 130 (App. Div. 2000). See^ also State v.
Pennington. 154 N.J. 344, 357, 712A.2d 1133 (1998) (nothing that,
FN9. That was a non sfcdutory aggravating factor tat was not submitted to the juryor found
by tat body beyond a reasonable.
-27-

pursuant to N.J.SA 20:44-1 c(2), "a sentencing court-is- required to
consider parole consequences in sentencing"); State v. Kovack. 91 N.J.
476,482,453 A.2d 521 (1982) ("Under the New Jersey Code of Criminal
Justice the parole ineligibility is the backbone .of the sentence."); State v.
Maguire. 84 N.J. 508, 530, 423 A.2d 294 (1980) ("The reality.stressed by
[defendant and amicus] is the duration of a sentence, but we suggest that
the ultimate reality is the period of actual imprisonment."); (State v.
Richardson. 208 N.J. Super. 399,413-14, 506 A.2d 43 (App. Div.), certif.
denied, 105 N.J. 552, 523 A.2d 188 (1986) ("{The period of actual
imprisonment before being released on parole is.the real sentence.
").We interpret subsection (e) of NERA to require that a jury determine.
bevond a reasonable doubt, that a defendant committed a violent crime
within the meaning of NERA before a sentencing court , mav impose the
statute's mandatory minimum sentencing structure.
"Johnson id. 166 N.J. at 1137-1141; also see New Jersey v. Stanton. 770 A.2d 1198 (N.J.
Super; Ct. App. Div. 2001) (statute providing for mandatory minimum sentence
unconstitutional in light of Apprendi as it permits judge, rather than jury, to make finding tat
defendant was intoxicated at time of commission of veHctiar homicide, even though finding
was made beyond a reasonable doubt). The Stanton court" went on to state, we are, of
course, bound by Johnson's reading of Apprendi. and as we understand Johnson, even
though it was directly addressing only NERA, its underlying holding is not subject to doubt. In
sum, as we view Johnson, it holds that if imposition of a statutorily mandated parole
ineligibility term is based on the existence of a fact other than a record of a prior conviction,
then, as a matter of the imperatives of the Fifth and Sixth Amendments, that fact must be
found by a jury beyond a reasonable doubt Id. at 1202.
Here during the May 5,1989 sentencing proceedings Mercer County Court Judge
Schroth using a preponderance of the evidence standard of proof to determine the
existence of four statutory aggravating circumstances and the non statutory aggravaiors
-28-

below aslottows:
St^orv Aggravating Circumstances
No. 1, the nature and circumstances of the offense and the role of.the
actor therein, including whether or not the crime was. committed, in an
especially heinous., cruel or depraved manner. Appentfcc (D). at Pa. 11,
lines 17-25, Pg. 12, line 1,
No. 3, the risk, that the defendant would commit another offense.
Appentfx (D) at pa. 12. lines 2-8.
No. 6, the extent of the defendant's prior criminal record and the
seriousness of the offense of which he had been convicted Appendx

m at Pg. 12, lines 9-14;
No. 9, the need for deterring the defendant and others from violating.the
law. Appendix (D). at Pa 12. lines 15-20.
Non Statutory A

ivHi

Circumstances

No. 1, You were also stopped while in the process of going for a loaded
gun; which your, record would indicate you would not hesitate, to use.
Appendoc(D). at Pg. 11 paragraph 4, and at Pg. 12, paragraph 1.
No, 2 The narcotics seized had a varying degree of value. It had one
value in New York where Mr.. Collins allegedly went to buy it, and then
when he allegedly cross the George Washington Bridge, and when he
allegedly got to Newark, it went up one hundred thousand dollars. And
then when you. got down to: Trenton, it went up another one hundred
thousand dollars. When you get to Washington, it , goes up another one
hundred thousand dollars. So, its worth at least, hundred fifty thousand
dollars according tp the testimony here in this area A quarter of a million
dollars, and more valuable as you went south. Appendbc (D). at Pg. 13.
paragraph 1. ^0 /
Based on those statutory and non statutory aggravating circumstances required to
-29-

impose a higher sentence than was. permissible based on the jury's verdict. The Mercer
County Judge stated:.
On the possession with intent .fo.disfributepursuantto the. statute, you'll
be committed, torthe custody of fine Commissioner of the: Department, of
Corrections ,for a period of life with parole ineligible for a period of twentyfive years. I’m? imposing a term- of parole ineligibility because he-was
clearly convinced: that the aggravating circumstances substantially
outweigh the non-existentmitigating circumstances: Appendix. (0); at.
Pgs. 13, lines 14-25.
Contemplated .with: those precepts in mind, because the May. 5, 1989 sentencing,
transcript reflects the sentencing proceedings were conducted pursuant to: sentencing
scheme of 2C-44-1 (a), that, required the judge to. find the facts necessary to impose a.
higher sentence than was permissible based on the jury's verdict alone. Establishes beyond
any doubt the. analogy of Appellate Division in erred in. concluding. Cunningham was
distinguishable, from. Collins's case. Since the unambiguous language set forth in N.j.S.A.
2G-44-1

[a]:

was tantamount, to California former sentencing

system

declared

unconstitutional in Cunningham v. California, because the statute required the judge to find
the facts necessary to impose a higher sentence than was permissible based on the jury’s
alone.ld. at 288,89,292-93.
In sunv the erroneous findings that New; Jersey Sentencing Scheme was
distinguishable from the sentencing scheme found to be unconstitutional in Cunningham, v.
California for denying Collins appeal; was contrary to clearly establish federal law as decided
by the Supreme Court in Cunningham and those Supreme Court cases cited

FN1G. Withthe exception of part of statutory aggrav^ing No. 6, i.e. the other statutory and
non statutory aggravating factors that increases the penalty for a crime beyond the
prescribed statutory majrimum must be submittedto a Jury, and beyond a reasonable doubt
Aoorenrfi v. New Jasev. 530 US. 466,120S.Ct 2348,147LEd2d435 (2MG) Id at49a
-SO-

therein, renders the New Jersey sentencing statute unconstitutional, and must be vacated.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

^*0^4

-31-

